OIG Investigative Reports,Lake City, SC October 27, 2011 - Florence Grand Jury Indictments
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS NOTICE
BILL NETTLES
UNITED STATES ATTORNEY
DISTRICT OF SOUTH CAROLINA
1441 Main Street, Suite 500 * Columbia, SC 29201 * (803) 929-3000
October 27, 2011
FOR IMMEDIATE  RELEASE
CONTACT PERSON::   Beth Drake
803-929-3000
Beth.Drake@usdoj.gov
FLORENCE GRAND JURY INDICTMENTS
Education Loan Fraud in Lake City, South Carolina---- Rubin Taylor, age 23,
of Coward, SC, Mary Taylor, age 27, of Coward, SC, Stacy Adams, age 31, of Coward, SC, Belinda
Wilson Pinckney, age 26, of Coward, SC, Pharish Aldophous Pinckney, age 26, of Coward, SC,
Nina Latrele Mcgill, age 26, of Scranton, SC, Terata Washington Floyd, age 42, of Lake City, SC,
Willis Leon Floyd, age 32, of Coward, SC, Belverly Anderson Graham, age 41, of Scranton, SC,
Shelley Mae Graham, age 44, of Cades, SC, Brittany Yvonne Washington, age 21, of Scranton, SC,
and Anthony Hickson, age 29, of Olanta, SC, were charged in a 1-count Indictment with conspiracy
to commit wire and loan fraud, a violation of Title 18, United States Code, Section 371. The
maximum penalty the defendants could receive is 5 years imprisonment. The case was investigated
by agents of the Department of Education and the United States Secret Service and is assigned to
Assistant United States Attorney William E. Day, II, of the Florence office for prosecution.
Illegal Gambling House ---- Jammy Miller, age 45, of Darlington, SC, Jeffrey Blanton, age
49, of Hamlet, NC, Daniel Chao, age 26, of Jamestown, NC, Randy Johnson, age 40, of Darlington,
SC, and Kelly Joe Andrews, age 32, of Darlington, SC were charged in a 1-count Indictment with
operating an illegal gambling house, a violation of Title 18, United States Code, Section 1955. The
maximum penalty the defendants could receive is 5 years imprisonment. The case was investigated
by the Darlington County Sheriffs Office and agents of the United States Secret Service and is
assigned to Assistant United States Attorney William E. Day, II, of the Florence office for
prosecution.
Mr. Nettles stated that the charges in these Indictments are merely accusations and that
the defendants are presumed innocent until and unless proven guilty
#####
Top
Printable view
Last Modified: 11/07/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov